CERTIFICATE OF WORD COUNT
NO. TBD
Foster Wheeler et al.,
Petitioners,
v.
Supreme Court of California (Richards et al.),
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Foster Wheeler et al.
Petition for Writ of Certiorari contains 5026 words, including the parts of the brief that are required
or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus

October 4, 2021

SCP Tracking: Hugo-240 Stockton Street, 8th Floor-Cover White

